C@OCKLE

Legal Briefs E-Mail Address:

Klel iets.
Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-73

MICHAEL W. GAHAGAN,
Petitioner,
v.
UNITED STATES CITIZENSHIP &
IMMIGRATION SERVICES, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE PUBLIC RECORD MEDIA IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4701 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE :
General Notary .
State of Nebraska : C6 Lite Qudraw- bh, Chir
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 38555

 

 
